                                                                                                     I
                               I

                              'I
       +PL     SC,                                               NATIONAL SCIENCE FOUNDATION
                                   :                              OFFICE OF INSPECTOR GENERAL


  q##i@!
  z
   .
   4

       or o               -        I
                                   I
                                                                    OFFICE OF INVESTIGATIONS

                                                               CLOSEOUT MEMORANDUM
                                   'I
 Case Number: I07040010                                                                         Page 1 of 1
                                   1
                                       I




          The Office of ~nspectorGeneral, National Science Foundation, initiated an investigation based on
          information that a principal investigator (PI) may have committed research misconduct.' Our
          investigation did not substantiate a violation of research misconduct. Accordingly, this case is
                            I
          closed.




                                           I

                                           I




                                               I




                                                   I




                                                   I




                                                       I

                                                       1



                                                       I




                                                           I


                                                           I

NSF OIG Form 2 (1 1/02)                                    1
                                                           1
